Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 EARLY ASSESSMENT FINDS
     THAT CMS FACES
 OBSTACLES IN OVERSEEING
   THE MEDICARE EHR
   INCENTIVE PROGRAM




                    Daniel R. Levinson
                     Inspector General

                     November 2012
                     OEI-05-11-00250
EARLY ASSESSMENT FINDS THAT CMS FACES OBSTACLES IN
OVERSEEING THE MEDICARE EHR INCENTIVE PROGRAM,
OEI-05-11-00250

WHY WE DID THIS STUDY

This study is an early assessment of CMS’s oversight of the Medicare electronic health
record (EHR) incentive program, for which CMS estimates it will pay $6.6 billion in
incentive payments between 2011 and 2016. Because professionals and hospitals self-
report data to demonstrate that they meet program requirements, CMS’s efforts to verify
these data will help ensure the integrity of Medicare EHR incentive payments.

HOW WE DID THIS STUDY

This study reviewed CMS’s oversight of professionals’ and hospitals’ self-reported
meaningful use of certified EHR technology in 2011, the first year of the program. To
address our objective, we analyzed self-reported information to ensure it met program
requirements. We also reviewed CMS’s audit planning documents, regulations, and
guidance for the program, and conducted structured interviews with CMS staff regarding
CMS’s oversight.

WHAT WE FOUND

CMS faces obstacles to overseeing the Medicare EHR incentive program that leave the
program vulnerable to paying incentives to professionals and hospitals that do not fully
meet the meaningful use requirements. Currently, CMS has not implemented strong
prepayment safeguards, and its ability to safeguard incentive payments postpayment is
also limited. The Office of the National Coordinator for Health Information Technology
(ONC) requirements for EHR reports may contribute to CMS’s oversight obstacles.

WHAT WE RECOMMEND

We recommend that CMS: (1) obtain and review supporting documentation from
selected professionals and hospitals prior to payment to verify the accuracy of their
self-reported information and (2) issue guidance with specific examples of documentation
that professionals and hospitals should maintain to support their compliance. CMS did
not concur with our first recommendation, stating that prepayment reviews would
increase the burden on practitioners and hospitals and could delay incentive payments.
We continue to recommend that CMS conduct prepayment reviews to improve program
oversight. CMS concurred with our second recommendation.

We recommend that ONC: (1) require that certified EHR technology be capable of
producing reports for yes/no meaningful use measures where possible and (2) improve
the certification process for EHR technology to ensure accurate EHR reports. ONC
concurred with both recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings........................................................................................................9
           CMS does not verify the accuracy of professionals’ or hospitals’
           self-reported meaningful use information prior to payment ............9
           CMS’s planned postpayment audits may not conclusively verify
           the accuracy of professionals’ and hospitals’ self-reported
           meaningful use information ........................................................... 11
Conclusion and Recommendations ............................................................16
           Agencies’ Comments and Office of Inspector General
           Response ........................................................................................18
Appendixes ................................................................................................20
           A: Meaningful Use Measures for Professionals and Hospitals ....20
           B: Centers for Medicare & Medicaid Services’ Assessment of
           Data Sources To Verify the Accuracy of Self-Reported
           Meaningful Use Information, by Measure .....................................26
           C: Agencies’ Comments ................................................................30
Acknowledgments......................................................................................34
                  OBJECTIVE
                  To conduct an early assessment of the Centers for Medicare & Medicaid
                  Services’ (CMS) oversight of the Medicare electronic health record (EHR)
                  incentive program.

                  BACKGROUND
                  The Medicare EHR Incentive Program
                  The American Recovery and Reinvestment Act (ARRA) established EHR
                  incentive programs for both Medicare and Medicaid to promote the use of
                  EHR technology by health care professionals and hospitals. 1 EHR
                  technology refers to computerized recordkeeping systems that store
                  patients’ health-related information, including medical histories and
                  procedure notes.
                  Only certain types of health care professionals and hospitals are eligible to
                  participate in the Medicare EHR incentive program. 2 Eligible health care
                  professionals include physicians, dentists, podiatrists, optometrists, and
                  chiropractors. Eligible hospitals include acute care hospitals and critical
                  access hospitals.
                  CMS began making Medicare EHR incentive payments in May 2011 and,
                  as of September 2012, had paid about $4 billion to 82,535 professionals
                  and 1,474 hospitals. 3 Per ARRA, CMS will continue to make Medicare
                  EHR incentive payments to professionals and hospitals through 2016.
                  CMS anticipates spending an estimated $6.6 billion in incentive payments
                  between 2011 and 2016. 4 Professionals can receive up to $44,000 each in
                  incentive payments over the duration of the program. 5 Hospital incentive
                  payments for each year of the program begin with a $2 million base
                  amount that is adjusted by a number of hospital-specific factors and
                  gradually decreased over the duration of the program. 6




                  1
                    ARRA §§ 4101 and 4201, amending Titles XVIII and XIX of the Social Security Act (SSA).
                  2
                    SSA §§ 1848(o)(5)(C) and 1886(n)(6), as added by ARRA §§ 4101 and 4102;
                  42 CFR § 495.100.
                  3
                    CMS, Data and Reports Page. Accessed at www.cms.gov on November 15, 2012.
                  4
                    CMS, Justification of Estimates for Appropriations Committees, Fiscal Year 2012.
                  Accessed at www.cms.gov on July 5, 2011.
                  5
                    SSA § 1848(o)(1), as added by ARRA § 4101(a); 42 CFR § 495.102.
                  6
                    SSA § 1886(n)(2), as added by ARRA § 4102(a); 42 CFR § 495.104.

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                  1
                  Medicare EHR Incentive Program Requirements
                  To qualify for Medicare EHR incentive payments, professionals and
                  hospitals must: (1) possess certified EHR technology; and
                  (2) meaningfully use that certified EHR technology, in accordance with
                  requirements defined by CMS, for a 90-day reporting period. 7
                  Certified EHR Technology. The Office of the National Coordinator for
                  Health Information Technology (ONC) defined EHR technology
                  certification requirements in Federal regulations. 8 EHR technology must
                  include certain functions in support of meaningful use requirements to
                  receive certification. 9 ONC requires certified EHR technology to be
                  capable of producing reports (EHR reports) on meaningful use by
                  aggregating information from records in the system.
                  ONC also defined the EHR technology certification process in Federal
                  regulations. 10 According to this process, private entities (certification
                  bodies) certify that EHR technology meets certification requirements
                  using vendor-supplied test data. 11 ONC lists all certified EHR technology
                  in the Certified Health Information Technology Product List (CHPL), an
                  online, publicly accessible database.
                  Meaningful Use. Professionals and hospitals must also meaningfully use
                  their certified EHR technology to qualify for Medicare EHR incentive
                  payments. To meaningfully use certified EHR technology, professionals
                  and hospitals must use numerous EHR technology functions defined in
                  Federal regulations as meaningful use measures. These measures
                  encompass EHR technology functions meant to improve health care
                  quality and efficiency, such as computerized provider order entry,
                  electronic prescribing (e-prescribing), and exchange of key clinical
                  information.
                  Each meaningful use measure has a specified criterion. Each criterion
                  involves performing a one-time action (yes/no measure) or performing a
                  certain action for a specified percentage of unique patients, patient visits,
                  or other events (percentage-based measure). For example, one yes/no
                  measure requires professionals to enable drug interaction checks in their

                  7
                    The 90-day reporting period applies to a professional’s or hospital’s first year of
                  participation; in subsequent years of participation, professionals and hospitals must
                  meaningfully use a certified EHR for the entire year. SSA §§ 1848(o)(1) and (2), as added by
                  ARRA § 4101(a); SSA §§ 1886(n)(1) and (3), as added by ARRA § 4102(a); 42 CFR § 495.4.
                  8
                    45 CFR pt. 170, subpart C.
                  9
                    Ibid.
                  10
                     45 CFR pt. 170, subparts D and E.
                  11
                     Ibid.

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                      2
                  certified EHR technology. 12 One percentage-based measure requires
                  professionals to submit more than 40 percent of all prescriptions
                  electronically. 13
                  Professionals and hospitals must meet criteria for a specified number of
                  meaningful use measures for CMS to deem them meaningful users. CMS
                  established 25 measures for professionals—15 mandatory measures (core
                  measures) and 10 additional measures (menu measures). From the
                  10 menu measures, each professional must select and meet 5. Similarly,
                  CMS established 24 measures for hospitals—14 core measures and
                  10 menu measures. Like professionals, each hospital must select and meet
                  5 menu measures. Professionals must meet criteria for 20 measures and
                  hospitals must meet criteria for 19 measures for CMS to deem them
                  meaningful users. 14
                  Table 1 illustrates the breakdown of yes/no and percentage-based
                  meaningful use measures, as well as the total number of core and menu
                  measures that CMS established for professionals and hospitals. For a
                  complete list of professional and hospital meaningful use measures, see
                  Appendix A.

                  Table 1: Number of Meaningful Use Measures by Type

                                                                               Percentage-Based           Yes/No   Total

                                                                 Core                                10        5     15
                   Professionals
                                                                Menu                                 6         4     10
                                                                 Core                                9         5     14
                   Hospitals
                                                                Menu                                 5         5     10

                       Total                                                                         30       19     49
                  Source: Office of Inspector General (OIG) analysis of Federal regulations, 2011.


                  Demonstrating Meaningful Use of Certified EHR Technology.
                  Professionals and hospitals must demonstrate meaningful use of certified
                  EHR technology for each year that they wish to receive an incentive
                  payment. As such, professionals and hospitals who received incentive
                  payments for 2011 will have to demonstrate meaningful use of certified
                  EHR technology anew in subsequent years to receive additional incentive
                  payments.



                  12
                     42 CFR § 495.6(d)(2).
                  13
                       42 CFR § 495.6(d)(4).
                  14
                    Many measures for professionals involve objectives and EHR capabilities similar to
                  measures for hospitals, although the precise measure definitions differ.

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                                     3
                  Professionals and hospitals demonstrate meaningful use of certified EHR
                  technology through online self-reporting in the National Level Repository
                  (NLR). The NLR is a CMS database that stores professionals’ and
                  hospitals’ information relevant to the EHR incentive program.
                  Professionals and hospitals submit self-reported information for
                  meaningful use measures to the NLR. For yes/no measures, professionals
                  and hospitals indicate that they have met the measure criteria by checking
                  a box. For percentage-based measures, professionals and hospitals
                  provide numerical totals for the numerator and denominator of each
                  measure. For example, to fulfill the e-prescribing measure, professionals
                  must report both the number of prescriptions submitted electronically and
                  the total number of prescriptions.
                  Professionals and hospitals also report their certified EHR technology to
                  the NLR using an EHR certification code. They obtain an EHR
                  certification code that corresponds to their certified EHR technology from
                  the CHPL database.
                  CMS’s Oversight of the Medicare EHR Incentive Program
                  To oversee the Medicare EHR incentive program, CMS has authority to
                  review professionals’ and hospitals’ demonstrations of meaningful use. 15
                  CMS’s reviews consist of prepayment validation in the NLR and
                  postpayment audits.
                  Prepayment Oversight. CMS conducts prepayment validation of
                  professionals’ and hospitals’ self-reported meaningful use information to
                  ensure that it meets program requirements. To do so, the NLR runs
                  prepayment system edits to validate that self-reported information meets
                  measure criteria. For example, for each percentage-based measure, the
                  NLR divides the self-reported numerator by the self-reported denominator
                  and determines whether the result meets the relevant percentage threshold.
                  The NLR also automatically checks professionals’ and hospitals’
                  self-reported EHR certification codes against ONC’s CHPL database to
                  confirm that they are valid. CMS does not approve incentive payments for
                  professionals and hospitals whose self-reported information fails
                  prepayment validation.
                  Postpayment Oversight. To verify that professionals’ and hospitals’
                  self-reported meaningful use information is accurate, CMS plans to audit
                  selected professionals and hospitals after payment. It plans to conduct a
                  risk assessment using data analyses to select audit targets (e.g., check that
                  self-reported denominators are consistent across certain meaningful use

                  15
                       42 CFR § 495.8(c).

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)        4
                  measures). At the time of our review, CMS had not yet completed any
                  postpayment audits.
                  Professionals and hospitals selected for audit will first undergo a desk
                  audit, during which they will provide documentation supporting their
                  self-reported information to CMS. If CMS is unable to verify the
                  accuracy of that information, it will proceed with an onsite audit.
                  Professionals and hospitals must retain documentation supporting their
                  self-reported meaningful use information for 6 years. 16
                  Per its policy, CMS will recover incentive payments when audits find
                  noncompliance. 17 Federal regulations state that professionals and
                  hospitals must meet all relevant meaningful use requirements to receive
                  incentive payments. 18 Partially meeting meaningful use requirements
                  does not qualify professionals and hospitals to receive incentive payments.
                  Related Work
                  This is the second of two OIG studies on CMS’s and States’ oversight of
                  the Medicare and Medicaid EHR incentive programs, respectively. The
                  first study in this series reviewed 13 States’ oversight of their Medicaid
                  EHR incentive programs. 19 OIG found that all 13 States planned to verify
                  compliance with at least half of eligibility requirements prior to making
                  EHR incentive payments. OIG also found that data availability limits both
                  the number of eligibility requirements that States plan to verify prior to
                  payment and the completeness of those verifications.
                  OIG is also conducting a series of audits of Medicare and Medicaid EHR
                  incentive payments. These audits will verify the accuracy of
                  professionals’ and hospitals’ self-reported meaningful use information, as
                  well as eligibility and payment amounts.

                  METHODOLOGY
                  Scope
                  We conducted an early assessment of CMS’s oversight of professionals’
                  and hospitals’ self-reported meaningful use information for 2011, the first
                  year of the Medicare EHR incentive program. The goal of this assessment
                  was to identify any potential vulnerabilities in CMS’s initial oversight
                  design for the program.

                  16
                     Ibid.
                  17
                     CMS, Attestation Overview. Accessed at www.cms.gov on May 9, 2012.
                  18
                     42 CFR pt. 495, subpart B.
                  19
                     OIG, Early Review of States’ Planned Medicaid Electronic Health Record Incentive
                  Program Oversight, OEI-05-10-00080, July 2011.

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                  5
                  For our assessment, we reviewed Federal regulations in effect at the time
                  of our data collection. CMS and ONC have recently issued updated
                  regulations for meaningful use and certified EHR technology, respectively.
                  Both CMS and ONC plan to issue additional regulatory updates in future
                  years of the program.
                  We reviewed CMS’s current and planned activities to verify the accuracy
                  of professionals’ and hospitals’ self-reported meaningful use information.
                  We also analyzed self-reported meaningful use information for
                  professionals and hospitals that CMS approved to receive incentive
                  payments.
                  We reviewed the components of ONC’s certification process and
                  requirements for EHR technology that affect CMS’s oversight activities
                  for the Medicare EHR incentive program. Because this study focuses on
                  CMS oversight, we did not conduct a complete review of ONC’s
                  certification process and requirements for EHR technology.
                  We did not review the appropriateness of the meaningful use measures as
                  defined by CMS in Federal regulations. We also did not review CMS’s
                  activities to verify that professionals and hospitals were among the types
                  eligible for the Medicare EHR incentive program. Further, we did not
                  review the accuracy of CMS’s calculated incentive payment amounts for
                  professionals or hospitals. Finally, we did not audit professionals’ or
                  hospitals’ self-reported meaningful use information to verify its accuracy.
                  Data Collection and Analysis
                  To address the study’s objective, we analyzed professionals’ and hospitals’
                  self-reported meaningful use information, CMS’s audit planning
                  documents, and Federal regulations and guidance for the Medicare EHR
                  incentive program. We also conducted structured interviews with CMS
                  staff about current and planned oversight.
                  Professionals’ and Hospitals’ Self-Reported Meaningful Use Information.
                  We collected professionals’ and hospitals’ self-reported information from
                  the NLR from the program’s inception in May 2011 through December
                  2011. We requested all registration, meaningful use, and payment
                  information from this period. This included self-reported meaningful use
                  information for 26,653 professionals and 668 hospitals that CMS approved
                  for about $1.7 billion in incentive payments. Professionals and hospitals
                  that CMS approved for payments included those that had received
                  incentive payments as well as those waiting to receive their payments.




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)          6
                  We also collected certified EHR technology information from ONC’s
                  CHPL database. We obtained a list of all valid EHR certification codes
                  that were present in the CHPL database as of December 2011.
                  We determined whether professionals’ and hospitals’ self-reported
                  meaningful use information met meaningful use measure criteria.
                  Specifically, we checked that self-reported numerators and denominators
                  met the required thresholds for percentage-based measures, that
                  professionals and hospitals selected “yes” for yes/no measures, and that
                  they reported the correct number of core and menu measures. We also
                  compared professionals’ and hospitals’ self-reported EHR certification
                  codes to the list of valid EHR certification codes from the CHPL database.
                  We also replicated part of CMS’s risk analysis of professionals’ and
                  hospitals’ self-reported meaningful use information. We compared
                  denominator values across selected percentage-based measures that should
                  have the same denominator to detect mismatches. We selected measures
                  for comparison based on CMS’s audit planning documents.
                  CMS’s Audit Plan, Staff Interviews, and Guidance to Professionals and
                  Hospitals. We collected planning documents outlining CMS’s audit
                  strategy for the Medicare EHR incentive program in December 2011, and
                  obtained updates to these documents in April 2012. The documents
                  included a comprehensive overview of CMS’s planned audit strategy and
                  details on CMS’s audit plan for each meaningful use measure.
                  In December 2011, we also conducted structured interviews with CMS
                  staff about CMS’s prepayment and postpayment oversight. We
                  interviewed staff responsible for implementation and oversight of the
                  Medicare EHR incentive program, including staff from the Office of
                  E-Health Standards and Services, the Office of Financial Management, the
                  Office of Information Systems, and the Office of Clinical Standards and
                  Quality.
                  We analyzed the information from CMS’s audit planning documents and
                  interviews to identify any limitations to CMS’s prepayment and
                  postpayment oversight. First, we reviewed CMS’s audit planning
                  documents to determine what data sources CMS had identified to verify
                  the accuracy of professionals’ and hospitals’ self-reported meaningful use
                  information. We then analyzed the interview results to determine what
                  current and planned prepayment and postpayment verification activities
                  CMS conducts using those data sources.
                  We also reviewed Federal regulations for the Medicare EHR incentive
                  program, a list of frequently asked questions (FAQ) on the Medicare EHR

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)     7
                  incentive program, and other information on the CMS Web site to
                  determine what audit guidance CMS provided.
                  Limitations
                  This report is an early assessment of CMS’s oversight as it existed at the
                  time of our data collection. We did not review completed audits
                  conducted by CMS because, at the time of our data collection, CMS had
                  not performed any.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)         8
                  FINDINGS
                  CMS does not verify the accuracy of professionals’ or
                  hospitals’ self-reported meaningful use information
                  prior to payment
                  CMS determines that professionals and hospitals are meaningful users of
                  certified EHR technology, and therefore qualify for incentive payments,
                  based solely on self-reported information. CMS does not verify that
                  self-reported information is accurate prior to payment. Although CMS is
                  not required to verify the accuracy of this information prior to payment,
                  doing so would strengthen its oversight of the anticipated $6.6 billion in
                  incentive payments. Verifying self-reported information prior to payment
                  could also reduce the need to identify and recover erroneous payments
                  after they are made.
                  CMS’s prepayment validation functions correctly but does not
                  verify the accuracy of self-reported information
                  CMS’s prepayment validation of professionals’ and hospitals’ self-reported
                  meaningful use information functions correctly. We found that all
                  self-reported information met meaningful use criteria for professionals and
                  hospitals approved for payment as of December 2011. In addition, all
                  professionals and hospitals reported valid EHR certification codes and the
                  correct number of core and menu measures.
                  Although CMS’s prepayment validation functions correctly, it does not
                  verify that self-reported information is accurate. The validation checks
                  that self-reported numerators and denominators calculate to required
                  percentage thresholds and that all relevant yes/no measures were checked
                  “yes.” However, it does not verify that numerators and denominators
                  entered for percentage-based measures reflect the actual number of
                  patients for a given measure or that professionals and hospitals possess
                  certified EHR technology.
                  Sufficient data are not available to verify self-reported
                  information through automated system edits
                  CMS staff reported that CMS considered using automated NLR system
                  edits to verify professionals’ and hospitals’ self-reported meaningful use
                  information prior to payment, but found that sufficient data were not
                  available to do so. Automated system edits in the NLR could compare
                  self-reported meaningful use information to other data sources as a means
                  of verification.


CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)     9
                  CMS did not identify any data sources it could use to verify any of the
                  49 meaningful use measures. According to CMS staff, existing internal
                  and external data sources are not comprehensive enough for verification
                  and, in some cases, are not easily accessible. Further, no data sources
                  exist for many of the meaningful use measures. Table 2 provides detail on
                  CMS’s assessment of data sources for verification. For a measure-specific
                  breakdown of the categories in Table 2, see Appendix B.

                  Table 2: CMS’s Assessment of Data Sources To Verify the Accuracy of
                  Self-Reported Meaningful Use Information
                   Assessment                                                  Number of Meaningful Use Measures

                   Internal CMS data sources are accessible but not
                   comprehensive enough for verification (e.g.,                                              25
                   Medicare claims data).

                   External data sources are not accessible for
                   verification (e.g., privately held e-prescribing data,                                     6
                   State public health agency data).

                   No data source exists (i.e., data for measure are
                                                                                                             19
                   not currently collected by any entity).

                   Internal CMS data sources and external data
                   sources exist but are not comprehensive or                                                (1)
                   accessible for verification, respectively.

                     Total                                                                                   49

                  Source: OIG analysis of CMS documents and interview data, 2012.



                  CMS has identified internal data sources for 25 meaningful use measures
                  but does not use the data to verify the accuracy of self-reported
                  information because they do not match measure definitions. For example,
                  CMS cannot verify self-reported denominators using Medicare claims data
                  because these data only cover the portions of the denominators associated
                  with Medicare patients. To verify self-reported denominators, CMS would
                  also need information about the non-Medicare patients.
                  CMS identified external data sources for six measures, but either did not
                  have access to them or chose not to use them to verify self-reported
                  information at the time of our data collection. For one measure, CMS
                  staff reported that the cost of obtaining e-prescribing data from a private
                  company, as well as the logistical difficulty of establishing real-time
                  access, prevented CMS from using that source. For five measures, CMS
                  identified public health data sources, such as State immunization
                  registries, for potential use. CMS staff reported that CMS would attempt


CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                             10
                  to gain access to these State data sources but, at the time of our data
                  collection, did not yet have access.
                  For 19 meaningful use measures, CMS did not identify any data sources it
                  could use to verify the accuracy of self-reported information. CMS staff
                  noted that these measures involve information that is not currently
                  collected by any entity.
                  CMS does not collect supporting documentation to verify
                  self-reported information prior to payment
                  CMS does not direct professionals or hospitals to submit supporting
                  documentation to substantiate their self-reported meaningful use
                  information prior to payment. While collecting this documentation for all
                  professionals and hospitals may not be feasible, CMS could feasibly
                  conduct risk analyses to select a subset of professionals and hospitals from
                  which to request supporting documentation. CMS could then review this
                  documentation to verify those professionals’ and hospitals’ self-reported
                  meaningful use information where possible. Conducting such prepayment
                  reviews would be consistent with CMS’s stated objective of moving from
                  a “pay and chase” model to a prevention-oriented approach focused on
                  high-risk providers. 20
                  Per OIG analysis, if prior to payment CMS had applied one of the risk
                  analyses it proposes to use to select postpayment audit targets, it would
                  have identified 14 percent of professionals (3,825 professionals) and
                  17 percent of hospitals (111 hospitals) for potential prepayment review.
                  These professionals and hospitals reported different denominator values
                  across selected meaningful use measures that should have the same
                  denominator.
                  CMS’s planned postpayment audits may not
                  conclusively verify the accuracy of professionals’ and
                  hospitals’ self-reported meaningful use information
                  In the event of an audit, CMS plans to rely on a combination of EHR
                  reports and supporting documentation to verify that self-reported
                  information is accurate. CMS staff reported that they plan to use EHR
                  reports to verify the accuracy of self-reported information where possible,
                  and obtain supporting documentation from professionals and hospitals as
                  necessary to verify measures not covered by those reports.

                  20
                    CMS, Statement by Dr. Peter Budetti, JD, on Fighting Fraud and Waste in Medicare and
                  Medicaid. Accessed at www.hhs.gov on July 18, 2012.

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                     11
                  To determine compliance conclusively, CMS’s audits must verify that
                  professionals’ and hospitals’ self-reported meaningful use information is
                  accurate. As such, the EHR reports and other supporting documentation
                  that CMS plans to rely on must be both sufficient (i.e., cover all aspects of
                  each meaningful use measure) and accurate.
                  Reports from certified EHR technology are not sufficient for
                  CMS to verify self-reported information and may not always be
                  accurate
                  In the event of an audit, CMS plans to use EHR reports to verify
                  professionals’ and hospitals’ self-reported meaningful use information.
                  These reports aggregate information from individual records in the
                  certified EHR technology to support the numbers that professionals and
                  hospitals self-reported to CMS to qualify for incentive payments.
                  CMS Cannot Verify Self-Reported Information Using Only Reports From
                  Certified EHR Technology. CMS cannot use EHR reports to verify all
                  self-reported meaningful use information because ONC does not require
                  certified EHR technology to be capable of producing reports for all
                  meaningful use measures. ONC requires only that certified EHR
                  technology be capable of producing reports covering professionals’ and
                  hospitals’ performance on the 30 percentage-based meaningful use
                  measures. 21 ONC does not require certified EHR technology to be
                  capable of producing reports for the 19 yes/no measures. 22
                  EHR reports also do not contain information necessary for CMS to verify
                  all percentage-based measures. Specifically, the denominators for many
                  percentage-based measures include both patients who have records in the
                  certified EHR technology and patients who do not (i.e., those who have
                  paper records only). 23 Because EHR reports contain information only on
                  patients with records in the certified EHR technology, CMS cannot use
                  them to verify denominators for percentage-based measures that include
                  all patients. For a list of meaningful use measures that require all patients
                  in the denominator, see Appendix A.




                  21
                     45 CFR § 170.302(n).
                  22
                     Ibid.
                  23
                     Federal regulations require that denominators for 11 of the 30 percentage-based measures
                  include all patients. For the remaining 19 percentage-based measures, professionals and
                  hospitals may choose to include all patients or only those with records in the certified EHR
                  technology for the denominator. 42 CFR § 495.6 (c)(1)(2).

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                           12
                  Reports From Certified EHR Technology May Produce Inaccurate
                  Information. One EHR technology vendor acknowledged that two of its
                  certified products could produce inaccurate EHR reports for three
                  percentage-based meaningful use measures. 24 According to ONC staff,
                  the certification process did not identify these potential inaccuracies
                  because the vendor-supplied test data did not account for the manner in
                  which some professionals use the products. Similar problems may exist
                  with EHR reports in other certified EHR technology.
                  The vendor is working to correct the problem and has notified CMS,
                  professionals, and hospitals. As of December 2011, 1,079 professionals
                  using the affected products (or 4 percent of all professionals receiving
                  payment) had been approved for or received Medicare EHR incentive
                  payments.
                  Inaccurate EHR reports may also lead to inaccurate audit determinations.
                  All 30 percentage-based meaningful use measures could potentially be
                  affected by this problem.
                  CMS may not be able to obtain sufficient supporting
                  documentation to verify self-reported information during
                  audits
                  Although Federal law and regulations require professionals and hospitals
                  to keep documentation supporting their demonstrations of meaningful use,
                  supplementary guidance from CMS does not provide additional detail on
                  the specific types of supporting documentation it expects. By law,
                  professionals and hospitals must retain documentation sufficient to support
                  all claims to Medicare, including claims for EHR incentive payments. 25
                  Federal regulations also state that professionals and hospitals “must keep
                  documentation supporting their demonstration of meaningful use.” 26
                  CMS has issued additional guidance—including information posted on its
                  Web site and EHR incentive program FAQs—that provides some further
                  detail regarding documentation requirements. 27, 28 However, none of this
                  guidance details the types of supporting documentation that CMS plans to
                  rely on for audits.



                  24
                    GE Healthcare, February letter to customers. Accessed at www.gehealthcare.com on
                  February 13, 2012.
                  25
                       SSA § 1833(e).
                  26
                       42 CFR § 495.8(c).
                  27
                       CMS, Attestation Overview. Accessed at www.cms.gov on May 9, 2012.
                  28
                       CMS, FAQs February 2012. Accessed at www.cms.gov on May 9, 2012.

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                 13
                  According to CMS staff, professionals and hospitals should keep detailed
                  supporting documentation to substantiate their self-reported meaningful
                  use information. CMS staff indicated that CMS auditors will use
                  supporting documentation to verify self-reported meaningful use
                  information for measures not covered by required EHR reports (i.e., the
                  19 yes/no measures and denominator values for percentage-based
                  measures with all-patient denominators). CMS staff reported, for
                  example, that they expect professionals and hospitals to maintain the
                  following:
                       •   screen shots showing that required EHR technology functions were
                           enabled on the first day of or at some point during the 90-day
                           reporting period (yes/no measures),
                       •   documents showing that a security risk assessment was conducted
                           (yes/no measures), and
                       •   evidence of the number of patients with paper records for
                           percentage-based measures with all-patient denominators
                           (percentage-based measures).
                  Supporting Documentation That CMS Obtains Will Not Be Sufficient for
                  CMS To Verify Self-Reported Information for Six Measures. Even if
                  professionals and hospitals retain the types of supporting documentation
                  that CMS staff expect, it will not be sufficient to verify self-reported
                  meaningful use information for six measures. These six yes/no measures
                  (three for professionals and three for hospitals) require that professionals
                  and hospitals enable certain EHR technology functions for the entire
                  90-day reporting period. Specifically, they require professionals and
                  hospitals to implement:
                       •   drug-drug and drug-allergy interaction checks,
                       •   one clinical decision support rule, and
                       •   drug formulary checks.
                  Per CMS’s audit plan, CMS will accept screen shots or in-person
                  demonstrations as supporting evidence to verify the accuracy of
                  self-reported meaningful use information. However, screen shots or
                  demonstrations will only verify that professionals and hospitals enabled
                  the required EHR technology functions at a specific time—not that they
                  enabled them for the entire 90-day reporting period.
                  These six meaningful use measures may be particularly vulnerable to
                  noncompliance. They require use of clinical decision support tools, which
                  physicians often view as onerous or unnecessary. Several studies show

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)           14
                  that physicians frequently develop “alert fatigue” with clinical decision
                  support tools, especially with medication alerts. 29, 30 As a result,
                  professionals and hospitals may disable clinical decision support tools for
                  all or part of their 90-day reporting period.




                  29
                     T. Isaac, et al., “Overrides of Medication Alerts in Ambulatory Care,” Archives of Internal
                  Medicine. 2009; 169(3):305–311. Accessed at www.archinte.ama-assn.org on
                  March 6, 2012.
                  30
                     H. Van der Sijs, et al.,“Overriding Drug Safety Alerts in CPOE,” Journal of American
                  Medical Information Association. 2006; 13:138–147. Accessed at www.jama.org on
                  March 6, 2012.

CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                         15
                  CONCLUSION AND RECOMMENDATIONS
                  CMS faces obstacles to overseeing the Medicare EHR incentive program
                  that leave the program vulnerable to paying incentives to professionals and
                  hospitals that do not fully meet the meaningful use requirements. Absent
                  changes to the definition of meaningful use, CMS should consider ways to
                  strengthen its program oversight to protect the $4 billion in Medicare EHR
                  incentive payments that it has paid, as well as billions of dollars in future
                  incentive payments.
                  Currently, CMS has not implemented strong prepayment safeguards.
                  CMS does not verify the accuracy of professionals’ and hospitals’
                  self-reported information prior to payment because data necessary for
                  verifications are not readily available. CMS also does not direct high-risk
                  professionals and hospitals to submit supporting documentation for
                  prepayment review.
                  CMS’s ability to safeguard incentive payments postpayment is also
                  limited. CMS’s planned postpayment audits may not conclusively verify
                  the accuracy of professionals’ and hospitals’ self-reported information
                  because supporting documentation may not be available. ONC’s
                  requirements for EHR reports may affect the availability of supporting
                  documentation. If CMS cannot conclusively verify the accuracy of a
                  professional’s or hospital’s self-reported information during a postpayment
                  audit, it will be unable to determine whether the professional or hospital
                  was a meaningful user and thereby qualified for the disbursed incentive
                  payment.
                  The following recommendations to CMS and ONC will help strengthen
                  oversight of the Medicare EHR incentive program. Our recommendations
                  to CMS focus on immediate changes that CMS can make to improve
                  safeguards, and our recommendations to ONC focus on changes to
                  enhance EHR reports in support of CMS’s oversight activities.
                  We recommend that:
                  CMS Obtain and Review Supporting Documentation From
                  Selected Professionals and Hospitals Prior to Payment To
                  Verify the Accuracy of Their Self-Reported Information
                  CMS should direct selected high-risk professionals and hospitals to submit
                  documentation supporting their self-reported meaningful use information
                  for prepayment review. To identify high-risk professionals and hospitals,
                  CMS could use some of the risk analyses it plans to use to select
                  postpayment audit targets. CMS could then collect supporting


CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)       16
                  documentation and conduct desk or onsite reviews, similar to its planned
                  postpayment audit process, prior to making payments.
                  CMS Issue Guidance That Details the Types of Documentation
                  It Expects Professionals and Hospitals To Maintain To Support
                  Their Compliance
                  CMS should bolster its current guidance by detailing the types of
                  supporting documentation it expects professionals and hospitals to
                  maintain for specific meaningful use measures. To do this, CMS could
                  issue an FAQ, conduct provider education, or issue other forms of
                  guidance. This guidance could explain, for example, that CMS expects
                  professionals and hospitals to keep documentation such as screen shots
                  and proof that a security risk assessment was performed.
                  ONC Require Certified EHR Technology To Be Capable of
                  Producing Reports for Yes/No Meaningful Use Measures,
                  Where Possible
                  ONC could do this by updating its current regulations on the standards and
                  functions required of certified EHR technology, or by including such a
                  requirement in planned future regulations for the program. OIG
                  acknowledges that producing reports may not be possible for some
                  measures that include information not contained in the certified EHR
                  technology (e.g., that a security risk assessment was conducted).
                  EHR reports for yes/no measures could help professionals and hospitals
                  prove compliance in the event of an audit and simplify CMS’s oversight.
                  In particular, these reports could help CMS conclusively verify that
                  professionals and hospitals had the relevant EHR technology functions
                  enabled for the entire 90-day reporting period.
                  ONC Improve the Certification Process for EHR Technology To
                  Ensure Accurate EHR Reports
                  ONC should ensure that certification bodies comprehensively test EHR
                  reports for accuracy as part of the certification process. For example,
                  ONC could require certification bodies to use standardized test data for
                  EHR reports instead of relying on vendor-supplied test data. While
                  recreating every manner of using EHR technology for testing purposes is
                  not be possible, more comprehensive testing may increase the reliability of
                  EHR reports for CMS’s postpayment audits.




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)       17
                  AGENCIES’ COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  We made four recommendations—two to CMS and two to ONC. CMS
                  did not concur with our first recommendation, but did concur with our
                  second recommendation. ONC concurred with both our third and fourth
                  recommendations.
                  CMS did not concur with our first recommendation that it obtain and
                  review supporting documentation from selected professionals and
                  hospitals prior to payment to verify the accuracy of their self-reported
                  information. CMS stated that the Medicare EHR incentive program is an
                  attestation-based program, and that prepayment reviews would impose an
                  increased up-front burden on practitioners and hospitals. CMS further
                  stated that conducting prepayment reviews would be difficult for
                  practitioners and hospitals beyond their first year of participation, due to
                  timing constraints, and could delay incentive payments.
                  We continue to recommend that CMS conduct prepayment reviews of
                  selected professionals and hospitals. While we recognize that doing so
                  would impose an increased burden on the professionals and hospitals
                  selected by CMS, that burden would be justified by the reduced likelihood
                  of making improper incentive payments to high-risk professionals and
                  hospitals. We note that the timing constraints CMS raised do not apply to
                  all practitioners and hospitals, and therefore do not justify forgoing
                  prepayment reviews altogether. We further note that our recommendation
                  leaves the decision of how to select high-risk professionals and hospitals
                  to CMS’s discretion; as such, CMS can select a methodology that
                  appropriately accounts for the logistical and timing constraints it faces.
                  CMS concurred with our second recommendation that it issue guidance
                  detailing the types of documentation it expects professionals and hospitals
                  to maintain to support their compliance. CMS indicated that it is currently
                  developing an FAQ document, to be posted online, that will bolster
                  existing guidance to professionals and hospitals. We note that as detailed
                  in our recommendation, the guidance that CMS provides should include
                  examples of the types of documentation professionals and hospitals should
                  retain for specific meaningful use measures.
                  ONC concurred with our third recommendation that it require certified
                  EHR technology to be capable of producing reports for yes/no meaningful
                  use measures, where possible. ONC stated that it will request
                  recommendations on the scope and feasibility of such a requirement from
                  its two Federal advisory committees. While we support ONC’s decision to
                  seek input from its advisory committees, we reiterate that requiring
CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)       18
                  certified EHR technology to be capable of producing EHR reports for
                  yes/no meaningful use measures would improve CMS’s ability to oversee
                  the Medicare EHR incentive program. As such, we continue to
                  recommend that ONC require certified EHR technology to be capable of
                  producing reports for all meaningful use measures, where possible, in its
                  future rulemaking.
                  ONC also concurred with our fourth recommendation that it improve the
                  certification process for EHR technology to ensure accurate EHR reports.
                  ONC stated that its most recent rulemaking includes more rigorous testing
                  requirements for certified EHR technology, and that it will continue to
                  work with stakeholders to develop more comprehensive test procedures
                  and reduce its reliance on vendor-supplied test data.
                  CMS provided one technical comment, which we have incorporated into
                  the report.
                  For the full text of CMS and ONC comments, see Appendix C.




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)    19
APPENDIX A

Meaningful Use Measures for Professionals and Hospitals


 Table A-1: Professional Meaningful Use Measures
                                                                                                          All-Patient
 Measure                               Criterion Type                           Measure Criterion       Denominator
                                                                                                           Required

 Core Measures

                                                        More than 30 percent of all unique patients
   1.   Computerized
                                                               with at least one medication in their
        provider order              Percentage-based                                                                No
                                                                 medication lists have at least one
        entry (CPOE)
                                                           medication order entered using CPOE.

                                                           The professional enables drug-drug and
   2.   Drug interaction
                                               Yes/no       drug-allergy check functionality for the               N/A
        checks
                                                                            entire reporting period.


                                                        More than 80 percent of all unique patients
                                                            have at least one entry (or an indication
   3.   Problem lists               Percentage-based                                                               Yes
                                                        that no problems are known for the patient)
                                                                       recorded as structured data.


                                                            More than 40 percent of all permissible
                                                           prescriptions written by the professional
   4.   Electronic
                                    Percentage-based             are transmitted electronically using               No
        prescribing
                                                            certified electronic health record (EHR)
                                                                                          technology.

                                                        More than 80 percent of all unique patients
                                                           have at least one entry (or an indication
   5.   Active medication
                                    Percentage-based     that the patient is not currently prescribed              Yes
        lists
                                                           any medication) recorded as structured
                                                                                                data.

                                                        More than 80 percent of all unique patients
   6.   Medication allergy                                 have at least one entry (or an indication
                                    Percentage-based                                                               Yes
        lists                                            that the patient has no known medication
                                                            allergies) recorded as structured data.

                                                        More than 50 percent of all unique patients
   7.   Demographics                Percentage-based    have demographics recorded as structured                   Yes
                                                                                              data.

                                                        More than 50 percent of all unique patients
                                                          age 2 and over have height, weight, and
   8.   Vital signs                 Percentage-based                                                                No
                                                            blood pressure recorded as structured
                                                                                              data.

                                                                                                   continued on next page




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                              20
 Table A-1: Professional Meaningful Use Measures (Continued)
                                                                                                            All-Patient
 Measure                               Criterion Type                            Measure Criterion        Denominator
                                                                                                             Required

 Core Measures (continued)

                                                        More than 50 percent of all unique patients
   9.   Smoking status              Percentage-based     13 years old or older have smoking status                    No
                                                                      recorded as structured data.


                                                             The professional successfully reports
   10. Ambulatory clinical
                                                        ambulatory CQMs selected by the Centers
       quality measures                        Yes/no                                                                N/A
                                                         for Medicare & Medicaid Services (CMS)
       (CQM)
                                                                 in the manner specified by CMS.


   11. Clinical decision                                  The professional implements one clinical
                                               Yes/no                                                                N/A
       support rule                                                          decision support rule.


                                                           More than 50 percent of all patients who
   12. Electronic copy of                                 request an electronic copy of their health
                                    Percentage-based                                                                  No
       health information                                         information are provided it within
                                                                                  3 business days.


                                                                Clinical summaries are provided to
   13. Clinical summaries           Percentage-based        patients for more than 50 percent of all                  No
                                                                          office visits within 3 days.


                                                        The professional performs at least one test
   14. Electronic
                                                          of certified EHR technology's capacity to
       exchange of                             Yes/no                                                                N/A
                                                                electronically exchange key clinical
       clinical information
                                                                                       information.


                                                            The professional conducts or reviews a
                                                           security risk analysis in accordance with
   15. Protection of                                                the requirements under 45 CFR
       electronic health                       Yes/no            164.308(a)(1), implements security                  N/A
       information                                              updates as necessary, and corrects
                                                        identified security deficiencies as part of its
                                                                          risk management process.

 Menu Measures


                                                           The professional enables drug-formulary
   1.   Drug formulary                                      check functionality and has access to at
                                               Yes/no                                                                N/A
        checks                                           least one internal or external formulary for
                                                                    the entire EHR reporting period.


                                                         More than 40 percent of all clinical lab test
                                                         results ordered by the professional during
                                                           the EHR reporting period whose results
   2.   Clinical lab test
                                    Percentage-based              are either in a positive/negative or                No
        results
                                                               numerical format are incorporated in
                                                            certified EHR technology as structured
                                                                                                 data.

                                                                                                     continued on next page




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                                21
 Table A-1: Professional Meaningful Use Measures (Continued)
                                                                                                                         All-Patient
 Measure                                         Criterion Type                                Measure Criterion       Denominator
                                                                                                                          Required

 Menu Measures (continued)


                                                                          The professional generates at least one
    3.    Patient lists                                   Yes/no             report listing patients with a specific            N/A
                                                                                                          condition.


                                                                            More than 20 percent of all patients
                                                                          65 years old or older or 5 years old or
    4.    Patient reminders                  Percentage-based                                                                    No
                                                                       younger are sent an appropriate reminder
                                                                               during the EHR reporting period.

                                                                         At least 10 percent of all unique patients
                                                                              are provided timely (available to the
                                                                          patient within 4 business days of being
    5.    Patient electronic
                                             Percentage-based           updated in the certified EHR technology)                Yes
          access
                                                                                  electronic access to their health
                                                                         information subject to the professional’s
                                                                        discretion to withhold certain information.

    6.    Patient-specific                                            More than 10 percent of all unique patients
          education                          Percentage-based            are provided patient-specific education                Yes
          resources                                                                                   resources.

                                                                           The professional performs medication
    7.    Medication
                                             Percentage-based           reconciliation for more than 50 percent of               No
          reconciliation
                                                                                                transitions of care.

                                                                        The professional who transitions or refers
                                                                            a patient to another setting of care or
    8.    Transition of care
                                             Percentage-based             provider of care provides a summary of                 No
          summaries
                                                                          care record for more than 50 percent of
                                                                                 transitions of care and referrals.

                                                                      The professional performs at least one test
    9.    Immunization                                                  of certified EHR technology’s capacity to
          registries data                                 Yes/no          submit electronic data to immunization                N/A
          submission                                                  registries and a follow up submission if the
                                                                                                test is successful.

                                                                      The professional performs at least one test
                                                                        of certified EHR technology's capacity to
                                                                       provide electronic syndromic surveillance
    10. Syndromic                                                     data to public health agencies and a follow
        surveillance data                                 Yes/no           up submission if the test is successful              N/A
        submission                                                    (unless none of the public health agencies
                                                                            to which a professional submits such
                                                                      information has the capacity to receive the
                                                                                       information electronically).

Source: Office of Inspector General (OIG) analysis of Federal regulations, 2011.




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                                          22
 Table A-2: Hospital Meaningful Use Measures

                                                                                                           All-Patient
 Measure                               Criterion Type                            Measure Criterion       Denominator
                                                                                                            Required

 Core Measures

                                                                 More than 30 percent of all unique
                                                            patients with at least one medication in
   1.   CPOE                        Percentage-based                                                                No
                                                            their medication lists have at least one
                                                            medication order entered using CPOE.

                                                              The hospital enables drug-drug and
   2.   Drug interaction
                                               Yes/no       drug-allergy check functionality for the               N/A
        checks
                                                                      entire EHR reporting period.

                                                                 More than 80 percent of all unique
                                                             patients have at least one entry (or an
   3.   Problem lists               Percentage-based                                                               Yes
                                                         indication that no problems are known for
                                                          the patient) recorded as structured data.

                                                                 More than 80 percent of all unique
                                                             patients have at least one entry (or an
   4.   Active medication
                                    Percentage-based      indication that the patient is not currently             Yes
        lists
                                                           prescribed any medication) recorded as
                                                                                    structured data.

                                                                 More than 80 percent of all unique
                                                             patients have at least one entry (or an
   5.   Medication allergy
                                    Percentage-based       indication that the patient has no known                Yes
        lists
                                                                  medication allergies) recorded as
                                                                                     structured data.

                                                                 More than 50 percent of all unique
   6.   Demographics                Percentage-based      patients have demographics recorded as                   Yes
                                                                                  structured data.

                                                                More than 50 percent of all unique
                                                              patients age 2 and over have height,
   7.   Vital signs                 Percentage-based                                                                No
                                                           weight, and blood pressure recorded as
                                                                                  structured data.

                                                               More than 50 percent of all unique
                                                              patients 13 years old or older have
   8.   Smoking status              Percentage-based                                                                No
                                                            smoking status recorded as structured
                                                                                             data.

                                                         The hospital successfully reports hospital
   9.   Hospital CQMs                          Yes/no      CQMs selected by CMS in the manner                      N/A
                                                                               specified by CMS.

   10. Clinical decision                                      The hospital implements one clinical
                                               Yes/no                                                              N/A
       support rule                                                          decision support rule.

                                                           More than 50 percent of all patients who
   11. Electronic copy of                                 request an electronic copy of their health
                                    Percentage-based                                                                No
       health information                                         information are provided it within
                                                                                  3 business days.

                                                                                                    continued on next page


CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                               23
 Table A-2: Hospital Meaningful Use Measures (Continued)

                                                                                                           All-Patient
 Measure                               Criterion Type                           Measure Criterion        Denominator
                                                                                                            Required

 Core Measures (continued)

                                                          More than 50 percent of all patients who
   12. Electronic copy of
                                                          are discharged from a hospital and who
       discharge                    Percentage-based                                                                No
                                                                request an electronic copy of their
       instructions
                                                            discharge instructions are provided it.

                                                          The hospital performs at least one test of
   13. Electronic exchange
                                                            certified EHR technology's capacity to
       of clinical                             Yes/no                                                              N/A
                                                               electronically exchange key clinical
       information
                                                                                       information.

                                                                The hospital conducts or reviews a
                                                          security risk analysis in accordance with
   14. Protection of                                               the requirements under 45 CFR
       electronic health                       Yes/no          164.308(a)(1), implements security                  N/A
       information                                            updates as necessary, and corrects
                                                          identified security deficiencies as part of
                                                                      its risk management process.

 Menu Measures

                                                               The hospital enables drug-formulary
   1.   Drug formulary                                     check functionality and has access to at
                                               Yes/no                                                              N/A
        checks                                           least one internal or external formulary for
                                                                   the entire EHR reporting period.

                                                                More than 50 percent of all unique
                                                            patients 65 years old or older have an
   2.   Advance directives          Percentage-based                                                                No
                                                          indication of an advance directive status
                                                                       recorded as structured data.

                                                        More than 40 percent of all clinical lab test
                                                         results ordered by the hospital during the
   3.   Clinical lab test                                  EHR reporting period whose results are
                                    Percentage-based                                                                No
        results                                           either in a positive/negative or numerical
                                                          format are incorporated in certified EHR
                                                                     technology as structured data.

                                                         The hospital generates at least one report
   4.   Patient lists                          Yes/no         listing patients of the hospital with a              N/A
                                                                                  specific condition.

                                                                More than 10 percent of all unique
   5.   Patient-specific
                                    Percentage-based          patients are provided patient-specific               Yes
        education resources
                                                                              education resources.

                                                                 The hospital performs medication
   6.   Medication
                                    Percentage-based     reconciliation for more than 50 percent of                 No
        reconciliation
                                                                                 transitions of care.

                                                                                                    continued on next page




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                               24
 Table A-2: Hospital Meaningful Use Measures (Continued)

                                                                                                                    All-Patient
 Measure                                        Criterion Type                            Measure Criterion       Denominator
                                                                                                                     Required


 Menu Measures (continued)

                                                                    The hospital that transitions or refers its
                                                                        patient to another setting of care or
    7.   Transition of care
                                             Percentage-based       provider of care provides a summary of                  No
         summaries
                                                                    care record for more than 50 percent of
                                                                           transitions of care and referrals.

                                                                   The hospital performs at least one test of
    8.   Immunization                                                 certified EHR technology’s capacity to
         registries data                               Yes/no        submit electronic data to immunization                N/A
         submission                                              registries and a follow up submission if the
                                                                                           test is successful.

                                                                  The hospital performs at least one test of
                                                                     certified EHR technology’s capacity to
    9.   Reportable lab
                                                                            provide electronic submission of
         results to public                             Yes/no                                                              N/A
                                                                      reportable lab results to public health
         health agencies
                                                                 agencies and a follow up submission if the
                                                                                           test is successful.

                                                                  The hospital performs at least one test of
                                                                     certified EHR technology’s capacity to
    10. Syndromic
                                                                  provide electronic syndromic surveillance
        surveillance data                              Yes/no                                                              N/A
                                                                       data to public health agencies and a
        submission
                                                                           follow up submission if the test is
                                                                                                successful.

Source: OIG analysis of Federal regulations, 2011.




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                                      25
APPENDIX B

Centers for Medicare & Medicaid Services’ Assessment of Data Sources To
Verify the Accuracy of Self-Reported Meaningful Use Information, by
Measure


 Table B-1: Professional Meaningful Use Measure Data Sources

   Measure                                                                                  Type of Data Source


 Core Measures


   1.   Computerized provider order entry (CPOE)                                             Internal data source


   2.   Drug interaction checks                                                                   No data source


   3.   Problem lists                                                                        Internal data source


                                                                                             Internal data source
   4.   Electronic prescribing (e-prescribing)
                                                           External data source: privately held e-prescribing data


   5.   Active medication lists                                                              Internal data source


   6.   Medication allergy lists                                                                  No data source


   7.   Demographics                                                                         Internal data source


   8.   Vital signs                                                                          Internal data source


   9.   Smoking status                                                                       Internal data source


   10. Ambulatory clinical quality measures
                                                                                             Internal data source
       (CQM)


   11. Clinical decision support rule                                                             No data source


   12. Electronic copy of health information                                                      No data source


   13. Clinical summaries                                                                    Internal data source

                                                                                              continued on next page




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                           26
 Table B-1: Professional Meaningful Use Measure Data Sources (Continued)

    Measure                                                                                             Type of Data Source


 Core Measures (continued)


    14. Electronic exchange of clinical information                                                            No data source


    15. Protection of electronic health information                                                            No data source


 Menu Measures


    1.    Drug formulary checks                                                                           Internal data source


    2.    Clinical lab test results                                                                       Internal data source


    3.    Patient lists                                                                                        No data source


    4.    Patient reminders                                                                                    No data source


    5.    Patient electronic access                                                                       Internal data source


    6.    Patient-specific education resources                                                            Internal data source


    7.    Medication reconciliation                                                                            No data source


    8.    Transition of care summaries                                                                         No data source


    9.    Immunization registries data submission                                   External data source: public health agency


    10. Syndromic surveillance data submission                                      External data source: public health agency

Source: Office of Inspector General (OIG) analysis of CMS documents and interview data, 2012.




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                                       27
 Table B-2: Hospital Meaningful Use Measure Data Sources

   Measure                                                                               Type of Data Source


 Core Measures


   1.   CPOE                                                                              Internal data source


   2.   Drug interaction checks                                                                No data source


   3.   Problem lists                                                                     Internal data source


   4.   Active medication lists                                                           Internal data source


   5.   Medication allergy lists                                                          Internal data source


   6.   Demographics                                                                      Internal data source


   7.   Vital signs                                                                       Internal data source


   8.   Smoking status                                                                    Internal data source


   9.   Hospital CQMs                                                                          No data source


   10. Clinical decision support rule                                                          No data source


   11. Electronic copy of health information                                                   No data source


   12. Electronic copy of discharge instructions                                               No data source


   13. Electronic exchange of clinical information                                             No data source


   14. Protection of electronic health information                                             No data source


 Menu Measures


   1.   Drug formulary checks                                                                  No data source


   2.   Advance directives                                                                Internal data source


   3.   Clinical lab test results                                                         Internal data source

                                                                                           continued on next page




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                        28
 Table B-2: Hospital Meaningful Use Measure Data Sources (Continued)

 Measure                                                                                  Type of Data Source


 Menu Measures (continued)


    4.   Patient lists                                                                           No data source


    5.   Patient-specific education resources                                               Internal data source


    6.   Medication reconciliation                                                          Internal data source


    7.   Transition of care summaries                                                       Internal data source


    8.   Immunization registries data submission                      External data source: public health agency


    9.   Reportable lab results to public health
                                                                      External data source: public health agency
         agencies


    10. Syndromic surveillance data submission                        External data source: public health agency

Source: OIG analysis of CMS documents and interview data, 2012.




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                         29
APPENDIXC

Agencies' Comments

    ,.'fP."'IC...,
   {        ~         DEPARTMENT OF HEALlH & HUMAN SERVICES                                     Centers for Medicare & Medicaid Services


    '~~                                                                                         Administrator
                                                                                                Washington, DC 20201



                                                         OCT 09. 2tili
                     TO: 	          Daniel R. Levinson
                                    klspector..Qeneral

                     FROM: 	        Mlrl\yrr'flt91l00er
                                                         /S/
                                    Acting Atminlftrator

                     SUBJECT: 	 Office of Inspector General (OIG) Draft Report- Early Assessment Finds That
                                CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program,
                                OEI-05-11-00250


                     Thank you for the opportunity to review and comment on the OIG draft report "Early
                     Assessment Finds That CMS Faces Obstacles in Overseeing the Medicare EHR Incentive
                     Program" (OEI-05-11-00250). The Centers for Medicare & Medicaid Services (CMS)
                     appreciates the contributions and valuable input by the OIG. The draft report assessed CMS's
                     oversight of the Medicare Electronic Health Record (EHR) Incentive programs. The information
                     in the report will help inform our administration of the Medicare and Medicaid EHR Incentive
                     Programs.

                     The CMS continues to work with the Office of National Coordinator for Health Information
                     Technology (ONC) to maximize the success of the Medicare and Medicaid EHR Incentive
                     Programs and the related Health Information Technology for Economic and Clinical Health
                     (HITECH) Act provisions. The draft report contained four recommendations: two for CMS and
                     two for ONC. We are addressing the CMS recommendations in this response.

                     OIG Recommendation

                     The CMS obtain and review supporting documentation from selected professionals and hospitals
                     prior to payment to verify the accuracy of their self-reported information.
                     CMS Response

                     The CMS does not believe prepayment audit is necessary at this juncture. CMS has
                     implemented a number of prepayment verification edits to ensure that providers are eligible to
                     participate in the Medicare EHR Incentive Program. In addition, CMS validates all of the EHR
                     certification numbers that are provided by providers. The EHR incentive program is an
                     attestation-based program and our systems have been designed to accommodate this process. It
                     would be particularly difficult to implement for providers after their firSt year of participation
                     because the reporting period is an entire year and all attestations are received in a two-month
                     period during which CMS would have to review supporting documentation. To change this
                     process and implement pre-payment audits could significantly delay payments to providers.




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11 -00250)                                                    30
CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)   31
                   DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                           Office of the Secretary
                                                                                                     Office of the Natiooal Coordinator
                                                                                                     fur Health lnfonnalion Technology
                                                                                                     Washington, D.C. 20201

             DATE: September 25, 2012

             TO: 	 Daniel R. Levinson
                   Inspector General
                                          /S/
             FROM: 	Farzad Mostashari
                   National Coordinator

             SUB.JECT: The Office of the National Coordinator for Health Information Technology's
             Comments to the Office of Inspector General's Draft Report, Early Asse.'iSment Finds That CMS
             Faces Obstacles in Over!feeing the Medicare EHR Incentive Program, OEI-05-11-00250

             Thank you for the opportunity to review and comment on the findings and recommendations in the Office
             ofinspector General's (O!G) Draft Report, Early Assessment Finds That CMR Faces Obstacles in
             Overseeing the Medicare EHR Incentive Program, OEI-OS-11-00250. The draft report includes
             recommendations for the Office of the National Coordinator for Health Information Technology (ONC)
             to enhance reports produced by EHRs to strengthen program oversight of the Medicare EHR incentive
             program. ONC concurs and has already taken steps to address both recommendations. ONC appreciates
             the OIG's efforts to improve program integrity. We will continue to collaborate with the Centers for
             Medicare and Medicaid (CMS) to strengthen the Medicare and Medicaid EHR Incentive Programs and
             the related Health Information Technology for Economic and Clinical Health (HITECH) Act provisions.

             OIG Recommendation

             ONC Require Certified EHR Technology to Be Capable of Producing Reports for Yes/No Meaningful
             Use Measures, Where Possible

             ONC Response

             ONC concurs with this recommendation and appreciates that the OIG recognizes the difficulty with
             requiring EHR technology to produce a "yes/no" report for some measures that include information not
             contained in the certified EHR technology (e.g., that a security risk assessment Wll$ conducted). As
             stated in the 20 !4 Edition Standards and Certification Criteria Final Rule, we will request ONC's two
             Federal advisory committees, the HIT Policy Committee and HIT Standards Committee, to provide
             recommendations on the appropriate scope and feasibility of a certification criterion focused on "yes/no"
             reports for meaningful usc measure. Once we get their recommendations, we will determine appropriate
             certification criterion in future rulemaking.

             OIG Recommendation

             ONC Improve the Certification Process for EHR Technology to Ensure Accurate EHR Reports

             ONC Response

             ONC concurs with OIG's recommendation and has already taken steps to address this recommendation.
             In response to the HITECH Act, ONC rapid ly established the Temporary Certification Program to ensure




CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)                                                    32
CMS Faces Obstacles in Overseeing the Medicare EHR Incentive Program (OEI-05-11-00250)   33
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago regional
                  office, and Tom Komaniecki and Laura Kordish, Deputy Regional
                  Inspectors General.
                  Kelly Waldhoff served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Chicago regional
                  office who contributed to the report include Adam Freeman and Brian
                  Jordan; central office staff who contributed include Debra Roush, Kevin
                  Manley, and Tasha Trusty.




Early Review of CMS Oversight of the Medicare EHR Incentive Program (OEI-05-11-00250)        34
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
